OIG Investigative Reports Press Release Montgomery AL., 02/24/2014 - Four Montgomery Residents Sentenced for Conspiracy to Defraud the United States Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of ALABAMA
NEWS
Four Montgomery Residents Sentenced for Conspiracy to Defraud the United States Department of Education
FOR IMMEDIATE RELEASE
February 24, 2014
Montgomery, Alabama - On February 21, 2014, Bobbie Jean Chilsom, Shawn A. Johnson, Sharon Johnson, and Sara Chilsom, all from Montgomery, were sentenced by United States District Judge Myron S. Thompson for their involvement in a conspiracy to defraud the United States Department of Education, and various colleges and universities of financial aid money, announced George L. Beck Jr., U.S. Attorney for the Middle District of Alabama.
Bobbie Chilsom was sentenced to 24 months of imprisonment followed by three years supervised release for mail fraud and was ordered to pay $276,734.27 in restitution. Shawn A. Johnson was sentenced to five years of probation, 12 months home confinement, and 10 weekends in jail for mail fraud, and was ordered to pay $222,068.41 in restitution. For her role in the conspiracy, Sharon Johnson was sentenced to five years of probation, 12 months home confinement, and 3 weekends in jail for conspiracy to commit to defraud the United States. She was also ordered to pay $397,963.22 in restitution. Finally, Sara Chilsom was sentenced to three years of probation for mail fraud and was also ordered to pay $10,845 in restitution.
As a part of this conspiracy, from September 2008, to September 2012, the defendants defrauded the United States Department of Education and colleges and universities of approximately $1,152,994 in Federal Student Assistance (FSA) money. FSA must be used by a student for tuition, fees charged by the institution, books, supplies, transportation, or other educational and living expenses.
The defendants, as well as other individuals they recruited for the scheme, applied for financial aid despite not having a high school diploma or a general education development (GED) certificate. To enable admission to the schools, a false diploma or GED certificate was provided during the enrollment process. As a result of the fraudulent applications for financial aid, the Department of Education paid tuition, enrollment fees, and living expenses for the defendants and other individuals that were not lawful.
Afterwards, the recruited individuals would pay the leaders of the conspiracy a percentage of the funds reserved for living expenses by mailing them debit refund cards or debit refund checks. Evidence further showed that the defendants or the recruited individuals would either not attend or would minimally attend their courses, and would minimally participate in completing or would not complete their course work. Ultimately, the financial aid funds they received were used for non-educational purposes such as the purchase of personal items or to pay for personal expenses.
Including the four defendants sentenced on February 21, 2014, a total of thirteen defendants were involved in this conspiracy. Previously sentenced were, Telvin Brown, Sunquesha Gaston, Philanthia Roberts, Printice Johnson, Shirley Johnson, Samuella McMillian, Edmond Lewis Harris, Jr., and Richard Jamar Pinkston, Jr. for mail fraud. Dennis Coleman was sentenced for conspiring to defraud the United States. All defendants are from Montgomery.
The case was investigated by the Department of Education-Office of Inspector General, the United States Secret Service, and the FBI. The case was prosecuted by Assistant United States Attorney Denise O. Simpson.
PRESS CONTACT: Clark Morris
Email: usaalm.press@usdoj.gov
Telephone: (334) 551-1755
Fax: (334) 223-7617
Top
Printable view
Last Modified: 02/26/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov